la
APPENDIX
TABLE OF CONTENTS
APPENDIX.

la

Opinion of the Supreme Court of New Hampshire
(March 14, 2019)
3a
Order of the New Hampshire Supreme Court
Denying Petitioner’s Motion for Rehearing and
Reconsideration (April 15, 2019)
10a
Opinion of the New Hampshire Circuit Court, Ninth
Circuit, Family Division, Nashua (April 28, 2018) 12a
Order of the New Hampshire Circuit Court, Ninth
Circuit, Family Division, Nashua, Denying
Petitioner’s Motion for Reconsideration (June 6,
2018)
38a
Order of the New Hampshire Circuit Court, Ninth
Circuit, District Division, Nashua, (August 6, 2018)
........................... ........................................................ 40a
Petitioner’s
Motion
for
Rehearing
and
Reconsideration in the Supreme Court of New
Hampshire (March 22, 2019)
41a
Respondent’s Objection to Motion for Rehearing and
Reconsideration in the Supreme Court of New
Hampshire (March 29, 2019)...
50a
Relevant Statutory Provisions

53a

2a
Ca Fam Code § 752.

53a

Ca Fam Code § 770.

53a

NH RSA § 458:16-a

54a

3a
Opinion of the Supreme Court of New
Hampshire (March 14, 2019)

THE STATE OF NEW HAMPSHIRE
SUPREME COURT

In Case No. 2018-0379, In the Matter of Dana
Albrecht and Katherine Albrecht, the court on
March 14, 2019, issued the following order:

We need not decide whether to grant the
respondent’s motion to strike the supplemental
appendix attached to the petitioner’s reply brief. The
petitioner filed this appendix in response to the
respondent’s contention that the petitioner had failed
to preserve his argument that California law
governed whether certain real estate in California
was part of the marital estate subject to division in
the parties’ New Hampshire divorce. The petitioner,
as the appealing party, had the burden to provide a
record on appeal sufficient to decide the issues he
raised and to demonstrate that he raised those issues
in the trial court. See Bean v. Red Oak Prop. Mgmt..
151 N.H. 248, 250 (2004). Pursuant to Supreme
Court Rule 13(3), the petitioner was obligated to file
his appendix no later than when he filed his brief.

4a
Furthermore, even were we to accept the
proposed supplemental appendix, it does not
establish that he preserved his argument. The
supplemental appendix contains three documents:
(1) a trial memo that states only that, under
California law, inherited property is separate
property and not subject to division upon divorce; (2)
the petitioner’s requests for findings, which request a
finding that his mother owned the California real
estate as separate property; and (3) the petitioner’s
replication to the respondent’s objection to his
motion for reconsideration. The replication argues
that, under California law, inherited property is
separate property and not subject to division and
that “it is appropriate for the Court to consider the
doctrine of ‘Conflict of Laws in the United States’
with regard to [the California real estate], taking
into account both California and New Hampshire
law.” See O’Heame v. McClammer. 163 N.H. 430,
438-39 (2012) (stating argument raised for first time
in reply to objection to motion for reconsideration not
preserved).
The petitioner’s motion for reconsideration
argued only that he did not own the California real
estate because he did not hold title to it; it did not
assert that California law controlled whether the
real estate was part of the New Hampshire marital
estate. The supplemental appendix does not
demonstrate that the trial court had an opportunity
to address this argument, which the petitioner

5a
makes upon appeal. Accordingly, we will not address
the argument.
Having considered the briefs and record
submitted on appeal, we conclude that oral argument
is unnecessary in this case. See Sun. Ct. R. 18(1). We
affirm.
The petitioner, Dana Albrecht (husband), appeals
an order of the Circuit Court (DalPra, M., approved
by Introcaso. J.), distributing marital property in his
divorce from the respondent, Katherine Albrecht
(wife). He contends that the trial court erred by: (1)
including certain California real estate to which he
did not hold title as marital property; (2) not
including the wife’s 2015 tax refund as marital
property; and (3) finding that he had withdrawn
$140,000 from the marital estate subsequent to the
parties’ legal separation.
We first address whether the trial court erred by
including the California real estate as marital
property. We review the trial court’s determination
of what assets are marital property de novo. In the
Matter of Eckroate-Breagy & Breagy. 170 N.H. 247,
250 (2017). Pursuant to RSA 458:16-a, I (2018), “all
tangible and intangible property and assets, real or
personal, belonging to either or both parties, whether
title to the property is held in the name of either or
both parties,” is subject to equitable distribution. In
the Matter of Heinrich & Heinrich. 164 N.H. 357,
359 (2012). Regardless of the source, all property

6a
owned by each spouse at the time of divorce is to be
included in the marital estate. In the Matter of
Geraghtv & Geraghtv. 169 N.H. 404, 418 (2016).
The husband argues that he did not own the
California real estate because he did not hold title to
it. It was devised to him by his mother upon her
death in 2014. The trust that held title to the real
estate during the mother’s life provided that, if the
husband’s mother predeceased his father, which she
did, “the Trustee shall distribute” (emphasis added)
the real estate to the husband. The husband’s father
testified that he was the trust’s sole trustee and that
he had not yet conveyed title to the husband because
he “didn’t even know [he] had to get that done” until
recently.
Contrary to the husband’s argument, his father
did not testify that he had transferred the California
real estate into a “survivor’s trust.” Instead, he
testified that he had not retitled any of the
properties other than his home. The husband
testified that he could demand that his father
immediately transfer title to him and that he could
obtain title to the real estate. He stipulated to the
value of the real estate and listed it as an asset on
his financial affidavit.
To the extent that the husband argues that his
father might refuse to give him title to the California
property, that would not alter his legal interest in
the property. Furthermore, we note that the trial

7a
court found that the husband’s father had supported
him financially since the parties separated.
Under his mother’s bequest, the husband has a
vested interest in the California real estate, which he
acquired prior to separating from the wife. RSA
458:16-a, I, does not require that a party have
received a physical deed to property in order for the
property to be included in the marital estate.
Accordingly, we conclude that the trial court
correctly included the California real estate in the
marital estate. See Flaherty v. Flaherty. 138 N.H.
337, 340 (1994) (stating husband’s remainder
interest in spendthrift trust, which he would not
receive until death of both his parents, properly
included in marital estate); Lawlor v. Lawlor. 123
N.H. 163, 165 (1983) (stating husband’s vested, but
undistributed, legacy was factor to consider in
property distribution).
We next address whether the trial court erred by
not including the wife’s 2015 tax refund as marital
property when the parties separated in 2016. The
husband argues that, in 2014, the parties filed a joint
tax return, were entitled to a $58,000 refund, and
asked the IRS to retain the refund and apply it to the
following year’s taxes. He represents that, in 2015,
the wife filed individually, the 2014 refund was
applied to her tax liability, and she was refunded the
remaining amount. In his brief, the husband states
that the 2015 refund was “approximately $30,000.”
In his motion for reconsideration, he represented

8a
that this refund was $28,888. His brief fails to
clearly articulate whether he is seeking half the total
2014 refund or half the amount that the wife was
refunded in 2015. However, his motion for
reconsideration sought half of the $28,888.
The husband does not identify where the wife
placed this money. The trial court included all the
wife’s cash, retirement accounts, and bank accounts,
and her business as marital property. Based upon
this record, we cannot conclude that the trial court
failed to include the tax refund in the division of
marital property.
Finally, we address whether the evidence
supported the trial court’s finding that the husband
had withdrawn $140,000 from the marital estate
subsequent to the parties’ legal separation. We will
affirm the trial court’s factual finding unless the
evidence does not support it or it is legally erroneous.
In the Matter of Saleskv & Saleskv. 157 N.H. 698,
707 (2008). In this case, the husband’s financial
affidavit stated that, at the date of filing, his
retirement accounts were worth $156,571 and that
their most recent value was $4,452. The husband
acknowledged that he withdrew money from his
retirement accounts after petitioning for divorce. His
financial affidavit supports the trial court’s finding
regarding the amount withdrawn. See id.

Affirmed

9a

Lynn, C.J., and Hicks, Bassett, Hantz Marconi, and
Donovan, JJ., concurred.
Eileen Fox,
Clerk
Distribution:
9th N.H. Circuit Court - Nashua Family Division,
659-2016-DM-00288
Honorable Julie A. Introcaso
Marital Master Bruce F. DalPra
Honorable David D. King
Dawn E. Worsley, Esq.
Israel F. Piedra, Esq.
Timothy A. Gudas, Supreme Court
Allison R. Cook, Supreme Court
File

10a
Order of the New Hampshire Supreme Court
Denying Petitioner’s Motion for Rehearing and
Reconsideration (April 15, 2019)

THE STATE OF NEW HAMPSHIRE
SUPREME COURT

In Case No. 2018-0379, In the Matter of Dana
Albrecht and Katherine Albrecht, the court on
April 15, 2019, issued the following order:

Supreme Court Rule 22(2) provides that a party
filing a motion for rehearing or reconsideration shall
state with particularity the points of law or fact that
he claims the court has overlooked or
misapprehended.
We have reviewed the claims made in the motion
for rehearing and reconsideration and conclude that
no points of law or fact were overlooked or
misapprehended in our decision. Accordingly, upon
reconsideration, we affirm our March 14, 2019
decision and deny the relief requested in the motion.
Relief requested in motion
for
rehearing
and
reconsideration denied.

11a

Lynn, C.J., and Hicks, Bassett, Hantz Marconi, and
Donovan, JJ., concurred.
Eileen Fox,
Clerk
Distribution:
9th N.H. Circuit Court - Nashua Family Division,
659-2016-DM-00288
Honorable Julie A. Introcaso
Marital Master Bruce F. DalPra
Honorable David D. King
Mr. Dana Albrecht
Israel F. Piedra, Esq.
Allison R. Cook, Supreme Court
File

12a
Opinion of the New Hampshire Circuit Court,
Ninth Circuit, Family Division, Nashua (April
28, 2018)
THE STATE OF NEW HAMPSHIRE
Ninth Circuit-Family Division-Nashua
No. 659-2016-DM-00288
In the Matter of: Dana Albrecht and Katherine
Albrecht
DIVORCE DECREE
The parties were married in November 1996.
They separated in April 2016. They have four
children, three of whom are minors. The court issued
a final Parenting Plan in September 2017 following a
two day hearing in August. Reference should be
made to the narrative and Parenting Plan. All other
issues were disputed, including fault; alimony and
child support; division of business interests and
distribution of all other property. In addition to the
two days of hearings in August 2017, the court
conducted hearings on October 5, October 6, 2017
and February 14, 2018. Each party had counsel.
Fault

13a
Each party alleged that the conduct of the other
cause the breakdown of the marriage. Petitioner
alleged that Respondent treated him in such a
manner as to endanger his health and reason.
Respondent likewise alleged that Petitioner spied on
her; “hacked” into her personal computer settings
and treated her so as to endanger her health and
reason. She also added Petitioner’s alleged adultery
with prostitutes into the mix.
The evidence disclosed that the parties met one
another on line through a website catering to those
with unusual sexual appetites (bondage, domination
etc.). After a brief courtship they were married.
During the first few years of the marriage they
engaged in those alternative sexual practices. They
also described their marriage as an “open marriage”,
one in which it was perfectly fine to engage in sexual
relations with others-with permission of one another.
In 1999 Respondent abandoned that lifestyle and
became involved in a conservative Christian church.
The evidence disclosed that Petitioner was not
particularly thrilled with Respondent’s conversion.
However, he appeared to acquiesce and each joined
the church in 2001.
Joining the church did not, however, end their
differences and disputes regarding their previous
lifestyle. There is evidence to show that Petitioner
continued to view pornography on a regular basis
and that he may have visited a prostitute or two.

14a
There is also evidence disclosing that Respondent
had a liaison with a NYC cab driver. She denied
anything more than just some kissing.
Respondent became a privacy advocate and
consumer privacy rights. She founded an
organization; authored books and articles; travelled
and gave speeches. She eventually began a home
based radio program. Beginning in 2004, following
his loss of employment, Petitioner assisted in the
business by performing various tasks, including
computer set-up, supervising installation of
computer hardware and peripherals and other
similar assignments. He is well versed in computers
and their usefulness. Respondent became suspicious
that Petitioner had installed devices that would
allow him to listen to her private conversations;
“hack” into her accounts and otherwise invade her
private communications. (The reader is invited to
review the narrative accompanying the Temporary
Decree dated September 30, 2016 for more specific
findings). She testified that his conduct caused her to
become extremely upset and fearful of him.
In previous hearings, the court heard testimony
regarding the possibility that Petitioner had done
those acts of which Respondent complained. The
court finds that Respondent’s suspicions were
reasonable. However, the court cannot conclude from
the evidence that any of Petitioner’s alleged “spying”
was as in depth or as widespread as Respondent
alleged. The court notes that Respondent is-or

15a
certainly was prior to her illness-a noted authority
on privacy rights. The evidence disclosed that she is
hyper-vigilant when it comes to that issue. The court
finds that her views on privacy and hyper-vigilance
contributed to her emotional state when it came to
her suspicions of extensive spying by the Petitioner.
Petitioner testified that Respondent frequently
and consistently verbally abused him throughout the
marriage. After he lost his job, he attended Harvard
University, eventually obtaining a masters’ degree.
He testified that Respondent did not support him in
this endeavor and often criticized him for attending
school. He testified that she threatened to show
pornographic images she copied from his computer to
members of the church. She would often wake him
when he was asleep and berate him for something he
may have done-or not done. He testified that this
conduct exacerbated his depression and anxiety.
The court has considered the testimony of the
parties and witnesses and reviewed the relevant
documentary evidence with respect to the fault
issues. The court finds that the parties met one
another on a website that caters to those with
unusual sexual practices; the parties agreed that
they had an open marriage for the first several years
of their married life; the Respondent eventually
withdrew from that lifestyle; the Petitioner, while
purportedly also stopped the practices, he continued
to harbor certain sexual proclivities but rarely acted
on them; the parties argued over his alleged conduct.

16a
The evidence disclosed that the parties consistently
argued over the children’s education; the operation of
Respondent’s business; the Petitioner’s decision to
attend graduate school; the Petitioner’s decision to
leave the conservative Christian church and even
their respective taste in music.
The court does not find that either party’s actions
or conduct was the primary cause of the breakdown
of this marriage. The relationship was troubled
beginning shortly after their first child was born.
The relationship’s breakdown is a result of a classic
example of irreconcilable differences.
Business: Parties* Employment: Alimony:
Child Support
There was considerable evidence and testimony
regarding “Albrecht Media, LLC”, a business entity.
The court finds that much of the evidence as it
pertains to a final order is either unreliable or
irrelevant. The court has reviewed hundreds of pages
of financial documents as well as a “Calculation of
Value” Petitioner submitted through an expert,
Karen Boulay (Boulay). Boulay testified that the
business had a current value of $87,550.00. She also
testified that its value in 2015 was $328,000.00. She
testified, in effect, that her valuation was not the
result of a typical business valuation. She classified
her process as “calculation” of value. She testified the
“the level of assurance on the estimate of value is
reduced” by this method. In the Introduction of her

17a
report, she described her “Premise of Value”. That
process presumed that the company was a “going
concern.” Reference may be made to Exhibit 3 should
the reader wish to further examine the process
Boulay followed. The court finds that the so-called
valuation is unreliable-based on Boulay’s own
testimony and an erroneous assumption that the
business would in the future assemble assets,
resources and income producing items that will
result in continued income and cash flow. The
business was not a going concern from late 2014
through the present. The court shall discuss the
reasons for finding the business was not viable at the
time of the hearing in October 2017.
In 1999 Respondent founded a consumer privacy
rights organization (CASPIAN). She organized
protests targeting “rewards” programs offered by
major retailers, such as Wal-Mart and others. These
activities occurred in Seattle, Texas and NH. She
became very well known in activist circles and
established several contacts.
Petitioner was employed by a software company
at the time the parties were married. He testified
that he worked at the same job from 1994-2004,
although under different company names due to
mergers with other companies. The parties resided in
CA until in or around 2000. They relocated to NH
with two children as a result of Petitioner’s
transferring to another location due to his
employment.

18a
Petitioner was laid off in 2004 and has not
worked other than at Respondent’s business since
that time. He testified that, following a brief period
of job hunting after the layoff, Respondent urged him
to go into business with her. It was around this
period that “Albrecht Media, LLC” was established.
Petitioner testified that his duties involved
managing or administrative work: he registered
Respondent with a speakers’ bureau; contacted
organizations on her behalf and arranged for
speaking engagements. Petitioner testified that
Respondent was usually in her office “trying to
become famous” for most of the day while he home
schooled the children and did some tutoring. Not
surprisingly, Respondent disputed the Petitioner’s
characterization regarding the depth of involvement
he described. During this period Respondent co­
authored a book on privacy.
In 2008 the parties purchased equipment so that
Respondent could broadcast a radio program for a
new broadcasting company. Petitioner took credit for
this decision, also, although there Is tittle evidence
to support his assertion. This platform allowed
Respondent to come in contact with Robert Beens,
the CEO of a Dutch company that operates search
engines which are privacy based. A business
relationship developed between Albrecht Media and
Beens’ company. The principals entered into a
contract that paid Albrecht Media $6,500.00
monthly. Petitioner testified that he further

19a
negotiated a compensation package that included
bonuses. Respondent has not specifically disputed
this assertion.
The business eventually became extremely
successful. Modest bonuses were paid in 2011 and
2012. From 2013-2015 the business earned in excess
of $227,000.00. The reliable evidence disclosed that
Respondent was primarily responsible for its success.
She was the radio and public personality that
promoted Beens’ products. She also authored another
book. She continued her public speaking and was
invited to several (for lack of a better term) privacy
conventions-often as the featured speaker. A witness
described her as a foremost and respected authority
in her area of expertise. The evidence disclosed that
the driving force in Albrecht Media was the
Respondent. Petitioner insisted that he was a vital
component of the company’s success. The evidence
disclosed that Petitioner did assist in some
administrative and technical tasks. However, the
Respondent was, in effect Albrecht Media.
In 2011 Respondent was diagnosed with breast
cancer. She eventually underwent a mastectomy,
intensive chemotherapy and radiation that lasted
through 2012. She underwent another major surgical
procedure in late 2012. Eventually she returned to
work. Her efforts were primarily responsible for the
large bonus payments in 2013,2014 and 2015.

20a
In 2015 doctors discovered Respondent had two
tumors in her brain. She was transported to a MA
hospital for emergency brain surgery in a blizzard,
largely due to the Petitioner’s effort in contacting a
neighbor who owned a vehicle with a snow plow. He
was able to transport Respondent to Boston for
surgery. Following surgery she underwent another
round of radiation. She has been treating for that
condition since the surgery. (Stage IV breast cancer
with metastases to the brain).
It was around this time that Respondent’s
performance on her program began to deteriorate.
The earnings significantly decreased. Bonuses were
generally
unattained;
the
contract
was
“renegotiated” so that income was reduced to
$1,000.00 monthly. In April 2016 she and Beens
mutually decided that she could no longer perform
satisfactorily. Beens’ company terminated the
contract in June 2016.
It was during late 2015 and 2016 that the parties’
marriage also deteriorated to the point that
Petitioner filed his Petition for Legal Separation. In
2016 Respondent filed a domestic violence petition.
Following a hearing the petition was dismissed.
Following a temporary hearing on the Petition for
Legal Separation, the court issued temporary orders
allowing Respondent total control over Albrecht
Media and restrained Petitioner from conducting any
of its business. Petitioner referred to Respondent’s
actions as a “hostile takeover” of the business. The

21a
court does not find any such characterization is
warranted.
Petitioner alleged that the business had value at
the time of the filing of the Petition for Legal
Separation. His expert (Boulay) testified that the
value of Albrecht Media was $327,000.00 as of the
end of 2015. She also testified that the value as of
October 2017 was $88,000.00. The court has written
elsewhere its reason for finding the report and
opinion of value are unreliable and need not reiterate
those here.
Petitioner insisted that Respondent either
mismanaged the company in 2016 or allowed the
business to purposefully fail. The court finds this
assertion
to
be
remarkably
unreasonable.
Respondent
experienced
breast
cancer;
a
mastectomy; chemotherapy; radiation and a second
major surgery in a 12-15 month period. She
continued her program and was primarily
responsible for the company’s continued earnings
through 2015. She underwent brain surgery in 2015.
The evidence disclosed that she was unable to
concentrate; could not adequately perform her
duties; continues to take medications that inhibit her
continued employment; has a condition that is not
curable; and is not able to sustain any reasonable
employment The suggestion that she is currently
capable of employment or that she ran Albrecht
Media into the ground is patently unreasonable.

22a
The court finds that any value of the business is
limited to its inventory and equipment The evidence
disclosed that inventory consists of computer and
sound equipment; book and frames inventory and
domains. The value is reduced by the amount of debt
The debt was incurred for printing of the books that
are described in this narrative. Respondent’s mother
loaned the business $50,000.00. Nearly half has been
repaid. Based on the reliable evidence the court finds
the following values: computer and sound equipment
($$3,000.00); book and frame inventory ($$4,500.00);
domains ($49,850); debt ($26,450.00). The court finds
that the business has equity of $27,000.00.
Respondent has alleged that Petitioner is
voluntarily unemployed. Petitioner testified that he
is suffering from depression and anxiety. He stated
that his anxiety has been exacerbated by these
proceedings.
Specifically
he
alleged
that
Respondent’s banning him from any participation in
the business and alleged verbal and emotional
(“public humiliation and shaming”) abuse of him
have resulted in an inability of becoming gainfully
employed at this time. He offered a letter from his
therapist purporting to support his assertions.
Petitioner holds BS degrees in Mathematics and
Computer Science. He has a Master’s Degree in
Applied Mathematics from Harvard. Furthermore,
he has advanced education from Harvard in
computer science. Until 2004 he was employed as a
software engineer. He was laid off in 2004 and began

23a
working for Respondent’s business. He performed
most of the IT tasks Respondent required. He served
in primarily an administrative capacity. The
evidence disclosed that Petitioner has extensive
knowledge of computers and computer hardware and
software. Respondent suggested that Petitioner’s
knowledge and minimal certification training would
allow him to obtain employment in relatively short
order. Petitioner asserted that he needs “substantial”
retraining and rehabilitation to enter the job market
Petitioner attempted to renew his certification as
a software engineer but failed the exam. He alleged
that Respondent “has made every effort to deprive
[him] of the tools and equipment required for him to
retake the exam or even prepare for It the first time
he took it The evidence does not support this
assertion. Although Respondent refused to hand over
certain computer equipment programs and the like,
the court finds that Petitioner had other options to
obtain the equipment if he desired to do so. As an
example: Petitioner’s father has, in effect been
supporting Petitioner since the parties’ separation.
Petitioner listed expenses of nearly $12,000.00
monthly expenses on his financial affidavit. He lists
no income and debts of $22,000.00 in credit cards
and $213,000.00 from his father.
Respondent requested child support based on
imputed income of $90,000.00-$100,000.00. She also
requested alimony of $2,000.00 monthly for a five
year period. The court finds that the reliable

24a
evidence disclosed that Petitioner’s current
emotional state has hindered his entry into the job
market, but nowhere to the extent that he alleged.
The evidence clearly shows that Petitioner will need
retraining in the computer field, but not
“substantial” training. In short, Petitioner is
currently unable to pay child support based on the
amount of income Respondent suggested should be
imputed. Likewise, Petitioner currently is not able to
pay alimony. Those circumstances may certainly
change within the next several months-especially
when Petitioner determines to move forward.
Real Estate
At the time of the final hearing the parties owned
or had interest in two parcels of real estate: Shasta
County, CA and the former marital residence located
at 214 Worcester Road, Hollis, NH.
They agreed that the CA property had a fair
market value of $160,000.00. Title to the NH real
estate is held in trust The parties are, however, the
de facto owners of the property. It was under a
purchase and sale agreement that would yield net
proceeds of approximately $304,500.00. (A closing
was scheduled for April 20. This narrative was
completed after that date).
Petitioner acquired ownership of the CA real
estate as a result of his mother’s death in 2014. He
acknowledged that he is the owner. The paperwork

25a
required to transfer title to him simply has not been
completed.
The parties acquired the NH property in or
around 2001 when they relocated from CA.
Petitioner sold his condominium in CA and the
parties received a gift in excess of $30,000.00 from
Petitioner’s parents. A substantial portion of the
funds was used as a down payment to acquire the
Hollis real estate. The balance of the purchase price
was financed through a mortgage. The mortgage was
refinance twice-in 2003 and 2013. In 2003,
Petitioner’s father gifted an additional $35,000.00 to
assist in that refinance. Some of the proceeds from
the refinancing were used to pay debt, including
student loans and household debt The court
reiterates that although the real estate is held in the
name of YSM Trust, it was the marital homestead.
The Hollis property was in need of improvements
in order to prepare it for sale at an economically
advantageous price. Respondent called an expert
witness, Donna Naroff (Naroff) to testify as to the
increase in value following the improvements. She
appraised the property in June 2016 for $377,500.00.
Respondent paid all the expenses for improvements
to the property. Naroff testified that due to market
conditions the property increased in value
approximately $27,000.00 from June 2016 to
January 2018. She also testified that an additional
increase of $61,000.00 was due to the improvements
made to the property. As written elsewhere in this

26a
narrative the property was subject to a purchase and
sale agreement. The selling price was $466,000.00.
The court finds that the funds to acquire the real
estate in 2001 came from sources primarily
attributable to the Petitioner. The increase in value
from June 2016 to the date of execution of the sales
agreement was due to market conditions and
Respondent’s contribution to expenses and labor. The
court finds that the CA property is part of the
marital estate as Petitioner came into ownership of
the property during the marriage. The court also
finds that Respondent made no monetary
contribution to the CA real estate. That property
shall be awarded to the Petitioner in its entirety. The
court shall consider the distribution as part of the
equitable property settlement.
Miscellaneous
There was significant testimony regarding other
items of personal property, including: gold and silver
coins; a gun collection; various retirement accounts;
cash held in a safe; motor vehicles and cash or funds
each party withdrew following the inception of these
proceedings. The court has reviewed the
documentary evidence each party submitted. The
court finds values as described on the attachment to
this Decree. As of this writing, the court had no
information that the closing on the Hollis, NH
property was delayed or otherwise had not occurred.
Given the tenor of these proceedings, the court is

27a
certain that it would have been notified had the
closing not taken place.
The court finds that Respondent’s physical health
at this time seriously impedes her ability to resume
employment that would afford her the opportunity to
earn income that could be classified as significant
The court also notes that the evidence supports a
finding that Petition had withdrawn substantial
funds from the marital estate during these
proceedings. The evidence also disclosed that
Respondent had also withdrawn a significant
amount from a retirement account and that she sold
gold and silver coins without Petitioner’s consent. In
spite of the significant withdrawals and sales by each
party, the court cannot find that the funds were used
for anything except for ordinary expenses.
The court heard testimony regarding a sum of
$32,000.00 that was held in a safe. Evidence
disclosed that the safe contained $5,000.00 at the
time of the hearing. Each party expressed
bewilderment as to where the balance went. Each
blamed the other for its disappearance. The court
has no conclusive evidence whatsoever where any of
the alleged missing fends went.
The court finds that an unequal division of the
proceeds of the sale of the real estate (presumably
approximately $305,000.00) in favor of the
Respondent is equitable. The evidence supports
findings that she will not be able to obtain

28a
substantial employment, if any, in the future;
Petitioner’s present and future earning capacity is
substantially greater than Respondent’s; his ability
to acquire capital assets is greater than
Respondent’s, if one assumes proceeds of $305,000.00
from the sale of the NH real estate and considers the
funds that parties have already withdrawn from the
marital estate, the division of property is slightly
greater that equal in Respondent’s favor.
The court makes the following observations: the
parties have treated one another with complete
disdain and disrespect. It is unfortunate that they
choose to do so. A review of the pleadings, Requests
for Findings and a review of any transcript will
clearly demonstrate the lengths each party went in
order to discredit demean and attempt to embarrass
each other during these proceedings.
RECOMMENDED:
1. Decree:
Divorce
decreed.
Cause:
Irreconcilable
differences
which
have
caused
the
irremediable breakdown of the marriage.
Petition for Legal Separation is dismissed.
Allegations of fault alleged by each party are
dismissed.
2. Parenting Plan and Uniform Support Order:

29a

The court has previously issued a Parenting
Plan. See accompanying Uniform Support
Order.
3. Tax Exemption:
The court makes no order with regard to tax
dependency. The rules and regulations of the
IRS shall govern this provision.
4. Post-Secondary Educational Expenses:
NA.
The court has no statutory authority to order
any party to pay for college or other
educational expenses beyond the completion of
high school unless BOTH parties agree. If the
parties agree to these expenses, their
agreement shall become an enforceable order
of the court and that agreement shall be
included in this provision or attached to this
Decree.
5. Guardian ad Litem Fees:
See Order of Appointment of GAL.
6. Alimony:

30a
Neither party is required to pay alimony to the
other. The court finds that neither party is
financially able to pay alimony at this time.
7. Health Insurance for Spouse:
Neither party shall be required to provide
health insurance for the other.
8. Life Insurance:
Petitioner shall maintain life insurance on his
life in the minimum amount of $250,000.00
designating Respondent as trustee for the
benefit of the children. This obligation shall
terminate at such time as the youngest child
attains the age of 18 years, graduates from
high
school
or
otherwise
becomes
emancipated.
Respondent did not have life insurance at the
time of the final hearing. Due to her health
circumstances it is unlikely that she will
quality for life insurance. Therefore,
Respondent shall be under no obligation to
purchase life insurance.
9. Motor Vehicles:
Petitioner is awarded the 2006 Honda Accord
free of any interest on the part of the

31a
Respondent. He shall be solely responsible for
any and all costs associated with the vehicle
and indemnify and hold Respondent harmless.
The 2010 and 2003 Honda Odysseys are
awarded to the Respondent free of any interest
on the part of the Petitioner. She shall be
solely responsible for all costs associated with
the vehicles and shall indemnify and hold
Petitioner harmless.
The parties shall cooperate and execute any
documents required to convey the ownership
of the vehicles in accord with this provision.
10. Furniture and Other Personal Property:
Petitioner is awarded the following items of
personal property free of any interest on the
part of the Respondent: the sofa and bed that
are currently in the marital residence; all
other items of personal property in his
possession.
Respondent is awarded all other Items of
personal property not otherwise disposed of by
the provisions of this Decree.
The court notes that there are firearms either
at the residence or in the possession or under
control of the Respondent. Currently, there are

32a
conditions
prohibiting
Petitioner
from
possessing firearms. Any and all such firearms
shall be turned over to the Hudson Police
pending further order.
11. Retirement Accounts and Other Tax Free
Assets:
Each party is awarded the funds each
withdrew from their respective retirement
accounts, together with any balances that may
remain free of any interest on the part of the
other.
12. Other Financial Assets:
(a) Each party is awarded their respective
financial accounts including bank accounts,
stocks, bonds and other similar accounts
not otherwise disposed of by the terms of
this Decree free and clear of any interest on
the part of the other.
(b) The cash ($5,000.00) and Pay Pal account
are awarded to the Respondent free of any
interest on the part of the Petitioner.
(c) Each party is awarded any funds each has
withdrawn during the course of these
proceedings free of any interest on the part
of the other.

33a

(d) Respondent is awarded the proceeds of the
sales of the gold and silver coins free of any
interest on the part of the Petitioner.
13. Business Interests:
The business entity known as “Albrecht
Media, LLC” is awarded to the Respondent
free of any interest on the part of the
Petitioner. She shall be solely responsible for
all debts of the business and shall indemnify
and hold Petitioner harmless.
14. Debt:
Petitioner shall be solely responsible for any
debt he incurred, including the AMEX card
ending in 2007.
Respondent shall be solely responsible for any
debt she has incurred.
15. Marital Home:
The marital home located at 214 Worcester
Road, Hollis, NH has been sold. Petitioner is
awarded ten percent (10%) of the net proceeds.
Respondent is awarded the balance of the net
proceeds. The court finds this distribution

34a
equitable for reasons
accompanying narrative.

described

in

the

16. Other Real Estate:
The real estate located in Whitmore, Shasta
County, CA is awarded to the Petitioner free of
any interest on the part of the Respondent The
parties agreed that the equity in the real
estate is $160,000.00.
17. Enforceability After Death:
The obligations created by the terms of this
Decree shall be considered a charge against
the respective estates of the parties
18. Execution of Documents:
Each party shall execute whatever documents
are necessary to effectuate the provisions of
this Decree within a reasonable time.
19. Restraining Order:
NA.
20. Name Change:
NA.

35a
21. Other:
(a) The court has reviewed the Findings of
Facts filed by each party. Petitioner filed
191 Requests and Respondent filed 216.
The court finds that the accompanying
narrative describes sufficient facts to
support the provisions of this Decree. In so
far as the Requests comport with those
findings in the narrative, they are granted.
If they do not, they are denied.
(b) Any party that unreasonably fails to
comply with the terms of this Decree or
other court orders (including the Uniform
Support Order) shall reimburse the other
for costs including reasonable attorneys’
fees.

4/2712018
Date

Bruce F. Palma
Bruce F. DalPra, Master

I hereby certify that I have read the recommendation
and agree that, to the extent the marital master has
made factual findings, he has applied the correct
legal standard to the facts determined by the marital
master.
4/27/2018
Date

Julie Introcaso
Judge

36a
THE STATE OF NEW HAMPSHIRE
Ninth Circuit-Family Division-Nashua
Docket No. 659-2016-DM-00288
In the Matter of: Dana Albrecht and Katherine
Albrecht

ATTACHMENT TO DECREE
VALUE OF ASSETS

RECOMMENDED:
Petitioner
CA real estate

$160,000.00

Retirement accounts

$4,500.00

Stock/bank accounts

$4,450.00

Motor vehicle

$3,000.00

Guns

No reliable evidence;
unknown value.

Funds withdrawn
subsequent to filing
Petition for Legal
Separation

$140,000.00

37a

Respondent
Albrecht Media

$27,000.00

Gold (sold by
Respondent)

$11,000.00

Silver (sold by
Respondent

$3,800.00

Cash

$5,000.00

Funds withdrawn from
ret. acct.

$53,000.00

Motor vehicle

$9,800.00

Bank accounts and Pay
Pal

$4,841

412712018
Date

Bruce F. Palma
Bruce F. DalPra, Master

38a
Order of the New Hampshire Circuit Court,
Ninth Circuit, Family Division, Nashua,
Denying Petitioner’s Motion for
Reconsideration (June 6, 2018)
ORDER RE:
RECONSIDERATION/CLARIFIATION9
The court has reviewed the post-hearing motions
each party has filed. The court has reviewed the
relevant exhibits referenced in the motions.
RECOMMENDED:
1. Respondent’s Motion for Late Entry of
Objection
to
Petitioner’s
Motion
for
Reconsideration is granted.
2. Petitioner’s Motion for Reconsideration is
denied in its entirety. The court’s narrative
findings are support by reliable evidence and
testimony.
3. Respondent’s Motion to Clarify and/or Amend
is granted. Respondent’s two firearms (hand
gun and shot gun) shall be returned to her.
Petitioner has been charged and is awaiting
9

This should read “Order Re: Reconsideration/Clarification.”
The family court’s scrivener’s error appears in the original.

39a
trial on criminal charges. His firearms (2
rifles) shall be turned over to the Hollis, NH
Police, pending resolution of the criminal
charges.
6/612018
Date

Bruce F. Dalpra
Bruce F. DalPra, Master

I hereby certify that I have read the recommendation
and agree that, to the extent the marital master has
made factual findings, he has applied the correct
legal standard to the facts determined by the marital
master.
6/6/2018
Date

Julie A. Introcaso
Judge

40a
Order of the New Hampshire Circuit Court,
Ninth Circuit, District Division, Nashua,
(August 6, 2018)

THE STATE OF NEW HAMPSHIRE
JUDICIAL BRANCH
NH CIRCUIT COURT
August 06, 2018
Case Name:
Case Number:

State v. Dana Albrecht
459-2017-CR-05023

NOTICE OF DECISION:
GUILTY.

FINDING OF NOT

(LEONARD, J.)
Sherry L. Bisson
Clerk of Court

41a
Petitioner’s Motion for Rehearing and
Reconsideration in the Supreme Court of New
Hampshire (March 22, 2019)

STATE OF NEW HAMPSHIRE
SUPREME COURT
In the Matter of Dana Albrecht and Katherine
Albrecht
2018-0379
MOTION FOR REHEARING AND
RECONSIDERATION
Now comes Dana Albrecht, pro se, and respectfully
requests this honorable Court to rehear this case and
reconsider its ruling.
As grounds it is stated:
1. In its order dated March 14, 2019, this
honorable Court has misapprehended certain
points of law.
2. New Hampshire Courts emphasize justice over
procedural technicalities. See Whitaker v. LA
Drew, 149 N.H. 55 (2003).

42a
3. To preserve the argument that “California law
controlled whether the real estate was part of
the New Hampshire marital estate,” the
petitioner need not have “articulated his
arguments to the trial court in precisely the
same manner as he has on appeal.” See In the
Matter of McAndrews & Woodson, 193 A.3d
834, 840 N.H. (2018).
4. Husband’s financial affidavit clearly listed the
California real estate as husband’s “separate
property,” thus asserting that it was not part
of the New Hampshire marital estate.
Husband supported his assertion by citing the
relevant California statutes to the trial court
multiple times. The trial court had ample
opportunity to consider the California statutes
and whether there was any conflict with the
New Hampshire statutes.
5. The trial court considered the California
statutes, considered the New Hampshire
statutes, made “choice of law” decisions, and
opted to decide, making a reversible error,
that California law did not control whether the
real estate was part of the New Hampshire
marital estate.
6. However, this honorable Court did not
“address the argument” that “California law

43a
controlled whether the real estate was part of
the New Hampshire marital estate.”
7. In failing to do so, this honorable Court has
violated both Amendment 14, § 1 of the U.S.
Constitution (the “Due Process Clause”) and
Art. IV, § 1 of the U.S. Constitution (the “Full
Faith and Credit Clause”).
8. “‘[D]ue process,’ unlike some legal rules, is not
a technical conception with a fixed content
unrelated to time, place and circumstances.”
See Mathews v. Eldridge, 424 U.S. 319, 334
(1976) (alteration in original). Rather, “[D]ue
process is flexible and calls for such procedural
protections as the particular situation
demands.” See Id. (internal citations omitted).
Accordingly, resolution of the issue of whether
Petitioner “establish[ed] that he preserved his
argument” also “requires analysis of the
governmental and private interests that are
affected.” See Id. (internal citations omitted).
More precisely, “the specific dictates of due
process generally requires consideration of
three distinct factors: First, the private
interest that will be affected by the official
action; second, the risk of an erroneous
deprivation of such interest through the
procedures used, and the probable value, if
any, of additional or substitute procedural
safeguards; and finally, the Government’s

44a
interest, including the function involved and
the fiscal and administrative burdens that the
additional
or
substitute
procedural
requirement would entail.” See Id. (internal
citations omitted).
9. This honorable Court did not consider these
three distinct factors. First, the parties’
private interest was substantially affected.
Second, there was substantial risk of an
erroneous deprivation of such interest through
the procedures used. Finally, this honorable
Court should have considered the probable
value of “additional or substitute procedural
safeguards.”
10. “Rules of practice and procedure are devised to
promote the ends of justice, not to defeat them.
A rigid and undeviating judicially declared
practice under which courts of review would
invariably and under all circumstances decline
to consider all questions which had not
previously been specifically urged would be
out of harmony with this policy.” See Hormel
v. Helvering, 312 U.S. 552 (1941).
11. This honorable Court did not explicitly state
whether it believed husband either forfeited or
waived his argument. “Waiver is different
from forfeiture. Whereas forfeiture is the
failure to make the timely assertion of a right,

45a
waiver is the ‘intentional relinquishment or
abandonment of a known right.’” See United
States v. Olano, 507 U.S. 725, 733 (1993).
12. Using Hormel v. Helvering as precedent, the
U.S. Court of Appeals for the Third Circuit
advises that “we have thus observed that we
will reach ‘a pure question of law even if not
raised below where refusal to reach the issue
would result in a miscarriage of justice or
where the issue’s resolution is of public
importance.’ Bagot v. Ashcroft, 398 F.3d 252,
256 (3d Cir. 2005) (quoting Loretangeli v.
Critelli, 853 F.2d 186, 189-90 n.5 (3d Cir.
1988)); see also Barefoot Architect, Inc. v.
Bunge, 632 F.3d 822, 835 (3d Cir. 2011)
(addressing a ‘purely legal question’ despite
the appellant’s failure to preserve the issue);
City of New York v. Mickalis Pawn Shop, LLC,
645 F.3d 114, 140 (2d Cir. 2011) (excusing a
forfeiture when the issue was ‘purely legal’
and the default results from inadvertence);
Council of Alt. Political Parties v. Hooks, 179
F.3d 64, 69 (3d Cir. 1999) (reaching for the
‘first time on appeal’ an issue that ‘concerns a
pure question of law’).” See Barna v. Board of
School Directors Panther Valley, 877 F. 3d 136
(2017).
13. This honorable Court’s refusal to reach the
issue of whether “California law controlled

46a
whether the real estate was part of the New
Hampshire marital estate” has resulted in a
“miscarriage of justice.”
14. Consequently, this honorable Court has erred
in not reaching this issue de novo.
15. Whether the husband’s father supported him
financially since the parties separated or
whether the husband believed he could obtain
title to the California property in the future is
not legally relevant.
16. It is undisputed that title to the California
property is held by a California trust and
neither party is a trustee.
17. In order to include the California property in
the New Hampshire marital estate, the State
of New Hampshire must have jurisdiction to
order the conveyance of title to one or both of
the parties.
18. It is undisputed that husband’s father, Mr.
David Albrecht, is the sole surviving trustee.
19. Mr. David Albrecht is a legal resident of the
State of California. See October 6th transcript
at 253.

47a
20. Neither the trial court nor this honorable
Court has personal jurisdiction over Mr. David
Albrecht. Consequently no order or decree of
either the trial court or this honorable Court
may be enforced upon Mr. David Albrecht
except by comity with the State of California.
21. Neither the trial court nor this honorable
Court has subject matter jurisdiction to settle
the California trust or husband’s mother’s
estate.
22. The State of California has sole jurisdiction to
determine the ownership of real property
within its borders.
23. Consequently, the State of New Hampshire
lacks any jurisdiction to order the conveyance
of title for the California property to either
party.
24. “In deciding constitutional choice-of-law
questions, whether under the Due Process
Clause or the Full Faith and Credit Clause,
[the U.S. Supreme Court] has traditionally
examined the contacts of the State, whose law
was applied, with the parties and with the
occurrence or transaction giving rise to the
litigation.” See Allstate Ins. Co. v. Hague, 449
US 302, 308 (1981).

48a
25. Consequently, “a set of facts giving rise to a
lawsuit, or a particular issue within a lawsuit,
may justify, in constitutional terms,
application of the law of more than one
jurisdiction. As a result, the forum State may
have to select one law from among the laws of
several jurisdictions having some contact with
the controversy. See Id. (internal citations
omitted). The kind of state action the Full
Faith and Credit Clause was designed to
prevent has been described in a variety of
ways by the U.S. Supreme Court. In Carroll v.
Lanza, 349 U. S. 408, 413 (1955), the U.S.
Supreme Court indicated that the Clause
would be invoked to restrain “any policy of
hostility to the public Acts” of another State.
26. Inclusion of the California real property, held
by a California trust, where neither party is
trustee, in the New Hampshire marital estate
would constitute “a policy of hostility to the
public Acts” of the State of California by the
State of New Hampshire.
27. It is not disputed that the parties were
married in California on November 4, 1996.
28. In accepting jurisdiction as the forum for the
parties’ divorce, the State of New Hampshire
has by necessity already recognized under the
Full Faith and Credit Clause the “significant

49a
contacts” of California with both parties
arising out of California being the forum of the
parties’ marriage.

WHEREFORE, Mr. Albrecht respectfully requests
this honorable Court to rehear this case and
reconsider its ruling.
Respectfully Submitted,
Pro Se,
Dana Albrecht
131 D.W. Hwy #235
Nashua, NH 03060
603-809-1097
Dated: March 22, 2019
I hereby certify that on this 22nd day of March
2019, a copy of the foregoing is being forwarded by
email and postal mail to Israel F. Piedra, Esq., 29
Factory Street, Nashua, NH 03061.
Dated: March 22, 2019

Dana Albrecht

50a

Respondent’s Objection to Motion for
Rehearing and Reconsideration in the
Supreme Court of New Hampshire (March 29,
2019)

STATE OF NEW HAMPSHIRE
SUPREME COURT
IN THE MATTER OF DANA ALBRECHT AND
KATHERINE ALBRECHT
2018-0379
OBJECTION TO MOTION FOR REHEARING
AND RECONSIDERATION
1. The Petitioner has not identified any points of
law or fact that the court has overlooked or
misapprehended.
2. Petitioner appears to contend for the first time
that his choice of law argument should have
been considered under plain error review.
3. The plain error rule is only appropriate in
extraordinary situations. See Clark & Lavey
Benefits Solutions v. Educ. Dev. Ctr., 157 N.H.
220, 225 (2008).

51a

4. Petitioner has not conducted a plain error
analysis under the applicable New Hampshire
case law. See id.
5. Petitioner has not demonstrated that the trial
court made an error. Id.
6. In any event, any alleged error was not
“obvious in the sense that the governing law
was clearly settled to the contrary.” State v.
Ruiz, 170 N.H. 553, 566 (2018).
7. Indeed, there is no controlling New Hampshire
law on the precise question Petitioner sought
to argue on appeal.
8. Petitioner also makes general constitutional
arguments regarding due process and full
faith and credit, but has failed to advance any
cogent legal theory or cite any case law
directly on point.
9. Petitioner’s Motion should be denied.
WHEREFORE, the Respondent-Appellee Katherine
Albrecht respectfully requests that this Court:
A. Deny the Petitioner’s Motion for Rehearing
and Reconsideration; and

52a
B. Grant such other and further relief as is just
and equitable.
Respectfully submitted,
KATHERINE ALBRECHT
By her Attorneys,
WELTS,
WHITE
&
FONTAINE, P.C.
Dated: March 29, 2019
/s/ Israel Piedra
Israel F. Piedra, Esq.
N.H. Bar No. 267568
29 Factory Street
Nashua, NH 03061
(603) 883-0797
ipiedra@lawyersnh. com
DELIVERY CERTIFICATION
I certify that on this date the foregoing brief will be
served on Dana Albrecht, pro se, via conventional
mail and e-mail.
Dated: March 29, 2019
/s/ Israel Piedra
Israel F. Piedra, Esq.

53a
Relevant Statutory Provisions
Ca Fam Code § 752
Ca Fam Code § 752. (Interest in separate
property of other spouse.)
Except as otherwise provided by statute, neither
spouse has any interest in the separate property of
the other.
Ca Fam Code § 770
Ca. Fam Code § 770. (Defined; conveyance)
(a) Separate property of a married person
includes all of the following:
(1) All property owned by the person before
marriage.
(2) All property acquired by the person after
marriage by gift, bequest, devise, or
descent.
(3) The rents, issues, and profits of the
property described in this section.
(b) A married person may, without the consent of
the person's spouse, convey the person's
separate property.

54a
NH RSA § 458:16-a

TITLE XLIII
DOMESTIC RELATIONS
CHAPTER 458
ANNULMENT, DIVORCE AND SEPARATION
Alimony, Allowances, Custody, etc.
Section 458:16-a
458:16-a Property Settlement. I. Property shall include all tangible and
intangible property and assets, real or personal,
belonging to either or both parties, whether title to
the property is held in the name of either or both
parties. Intangible property includes, but is not
limited to, employment benefits, vested and nonvested pension or other retirement benefits, or
savings plans. To the extent permitted by federal
law, property shall include military retirement and
veterans' disability benefits.
II. When a dissolution of a marriage is decreed,
the court may order an equitable division of property
between the parties. The court shall presume that an
equal division is an equitable distribution of
property, unless the court establishes a trust fund
under RSA 458:20 or unless the court decides that an

55a
equal division would not be appropriate or equitable
after considering one or more of the following factors:
(a) The duration of the marriage.
(b) The age, health, social or economic status,
occupation, vocational skills, employability, separate
property, amount and sources of income, needs and
liabilities of each party.
(c) The opportunity of each party for future
acquisition of capital assets and income.
(d) The ability of the custodial parent, if any, to
engage in gainful employment without substantially
interfering with the interests of any minor children
in the custody of said party.
(e) The need of the custodial parent, if any, to
occupy or own the marital residence and to use or
own its household effects.
(f) The actions of either party during the marriage
which contributed to the growth or diminution in
value of property owned by either or both of the
parties.
(g) Significant disparity between the parties in
relation to contributions to the marriage, including
contributions to the care and education of the
children and the care and management of the home.
(h) Any direct or indirect contribution made by
one party to help educate or develop the career or
employability of the other party and any interruption

56a
of either party's educational or personal career
opportunities for the benefit of the other's career or
for the benefit of the parties' marriage or children.
(i) The expectation of pension or retirement rights
acquired prior to or during the marriage.
(j) The tax consequences for each party.
(k) The value of property that is allocated by a
valid prenuptial contract made in good faith by the
parties.
(l) The fault of either party as specified in RSA
458:7 if said fault caused the breakdown of the
marriage and:
(1) Caused substantial physical or mental pain
and suffering; or
(2) Resulted in substantial economic loss to the
marital estate or the injured party.
(m) The value of any property acquired prior to
the marriage and property acquired in exchange for
property acquired prior to the marriage.
(n) The value of any property acquired by gift,
devise, or descent.
(o) Any other factor that the court deems
relevant.
III. If either or both parties retain an ownership
interest in an education savings account held on
behalf of a child of the marriage, including a

57a
qualified tuition program under 26 U.S.C. Section
529, the court may, in its discretion, preserve the
account for its original purpose or may treat the
account as property of the marriage subject to
equitable division under this section.
IV. The court shall specify written reasons for the
division of property which it orders.

Blank Page

